  OFFICE ON VIOLENCE AGAINST WOMEN

          GRANTS AWARDED TO

AMA DOO ALCHINI BIGHAN, INCORPORATED

           CHINLE, ARIZONA





       U.S. Department of Justice

     Office of the Inspector General

              Audit Division





      Audit Report GR-60-10-008

           September 2010

           OFFICE ON VIOLENCE AGAINST WOMEN

                   GRANTS AWARDED TO

         AMA DOO ALCHINI BIGHAN, INCORPORATED

                    CHINLE, ARIZONA


                        EXECUTIVE SUMMARY



      The Office of the Inspector General, Audit Division, has completed an
audit of the Tribal Domestic Violence and Sexual Assault Coalitions Grant
Program (Tribal Coalitions Program), Grant Number 2005-IW-AX-0007, and
the Rural Domestic Violence and Child Victimization Enforcement Grant
Program (Rural DV Program), Grant Number 2005-WR-AX-0068, in the total
amount of $1,930,450, awarded by the Office On Violence Against Women
(OVW) to Ama Doo Alchini Bighan, Incorporated (ADABI), of Chinle, Arizona.

      The OVW’s websites for the Tribal Coalitions Program and the Rural DV
Program state that:

      According to the 2007 National Crime Victimization Survey of the
      United States, approximately 623,000 violent crimes–554,000
      against female victims–were committed by an intimate partner
      and approximately 248,300 rape/sexual assault victimizations
      occurred in 2007. The 2007 Bureau of Justice Statistics Report
      on "Homicide Trends in the U.S." revealed that about one third
      of female murder victims were killed by an intimate [partner]. A
      study released by the Centers for Disease Control and Prevention
      found that about 10% of students report being physically hurt by
      a boyfriend or girlfriend in the last 12 months. Lastly, according
      to the Bureau of Justice Statistics Supplemental Victimization
      Survey on Stalking, an estimated 3.4 million persons age 18 or
      older were victims of stalking during a 12-month period. Service
      providers and victims of domestic violence, dating violence,
      sexual assault, and stalking living in rural jurisdictions face
      unique barriers to giving and receiving assistance. These include
      geographic isolation, economic structure, strong social and
      cultural pressures, and lack of available resources.

      The purpose of the Tribal Coalitions Program is to build the capacity of
survivors, advocates, Indian women's organizations, and victim service
providers to form nonprofit, nongovernmental tribal domestic violence and
sexual assault coalitions to end violence against American Indian and Alaska
Native women. OVW's Tribal Coalitions Program grants are used to increase
awareness of domestic violence and sexual assault against American Indian
and Alaska Native women; enhance the response to violence against women
at the tribal, federal, and state levels; and identify and provide technical
assistance to coalition membership and tribal communities to enhance
access to essential services.

      The purpose of the Rural DV Program is to enhance the safety of
children, youth, and adults who are victims of domestic violence, dating
violence, sexual assault, and stalking by supporting projects uniquely
designed to address and prevent these crimes in rural jurisdictions. The
Rural DV Program encourages collaboration between victim advocates, law
enforcement officers, pretrial service personnel, prosecutors, judges and
other court personnel, probation and parole officers, and faith- and
community-based leaders to overcome the problems of domestic violence,
dating violence, sexual assault, and stalking and to ensure that victim safety
is paramount in providing services to victims and their children. The Rural
DV Program is required to set aside no less than 25 to 40 percent of funds,
depending on annual appropriations, for activities that meaningfully address
sexual assault.

Audit Purpose

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported, allowable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
program income, property management, indirect costs, and management of
contractors were not applicable to these grants. 1

     As shown in Exhibit 1, ADABI was awarded two grants, plus one
supplement, totaling $1,930,450.




      1
          Our audit objective, scope, and methodology are further discussed in Appendix III.

                                            - ii ­
EXHIBIT 1: AWARDS TO AMA DOO ALCHINI BIGHAN,
           INCORPORATED
          GRANT AWARD           AWARD AMOUNT                  PROGRAM

 2005-IW-AX-0007                  $    233,965        Tribal Coalitions

 2005-WR-AX-0068                       866,733        Rural DV

 2005-WR-AX-0068(S1) 2                 829,752        Rural DV

             Total                $ 1,930,450
Source: OJP Grants Management System (GMS)

Audit Results

       We examined ADABI’s accounting records, Financial Status Reports
(FSRs), Categorical Assistance Progress Reports (Progress Reports),
operating policies and procedures, and budget management. We found that
ADABI met the match requirement for the Tribal Coalitions Program grant,
2005-IW-AX-0007. Additionally, we found that the performance under both
grants was acceptable. However, we found that, while there were adequate
operating policies and procedures, ADABI does not have approved written
financial policies and procedures in place. Also, we found that the FY 2008
Single Audit was delinquent, drawdowns and support documents were
inaccurate and notations concerning adjustments to the general ledger were
unsupported, some expenses were not accurately recorded in the proper
expense categories, and support documentation was inadequate, resulting in
$22,398 in questioned costs. Additionally, payroll records did not always
accurately match the hours worked, percentages of salaries charged to the
grant exceeded the budget, matching was not recorded in the accounting
system, FSRs did not reconcile to the accounting records and were generally
late, and Progress Reports were incomplete and generally late. Specifically,
we found the following:

   •	 ADABI does not have approved written financial policies and

      procedures, although they do consult an unofficial draft.


   •	 The FY 2008 Single Audit was delinquent.

   •	 Some drawdown requests were inaccurate and notations concerning
      adjustments to the general ledger were unsupported, resulting in the
      inability to reconcile drawdowns with accounting records.


      2
        Supplement One (S1) to grant 2005-WR-AX-0068 was awarded to ADABI
September 10, 2007.

                                      - iii ­
  •	 For Grant Number 2005-IW-AX-0007, expenses were incorrectly
     combined into a single category as subcontractor expenses rather than
     the appropriate account categories.

  •	 Unsupported questioned costs totaling $15,186 for Grant Number
     2005-IW-AX-0007.

  •	 Unsupported questioned costs totaling $7,212 for Grant Number

     2005-WR-AX-0068.


  •	 Hours paid to the Executive Director for Grant Number
     2005-IW-AX-0007 did not always match the hours worked, resulting in
     inaccurate payroll records.

  •	 Percentages of salaries charged to both grants exceeded the approved
     grant budget allocations.

  •	 Matching costs for Grant Number 2005-IW-AX-0007 were not recorded
     in the accounting system.

  •	 FSRs for both grants generally did not reconcile to the accounting
     records.

  •	 FSRs for both grants were submitted from 1 to 22 days late.

  •	 Progress Reports for Grant Number 2005-WR-AX-0068 were submitted
     from 12 to 42 days late.

  •	 Progress Reports for six of eight reporting periods were missing data
     required by the special conditions for Grant Number
     2005-WR-AX-0068.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                   - iv ­
                                TABLE OF CONTENTS




INTRODUCTION .................................................................................1

     Audit Purpose ................................................................................2

     Background...................................................................................3

     OIG Audit Approach .......................................................................5

FINDINGS AND RECOMMENDATIONS.................................................6

     Internal Control Environment ..........................................................6

     Drawdowns ...................................................................................7

     Grant Expenditures ........................................................................8

     Reports ...................................................................................... 10

     Conclusion .................................................................................. 16

     Recommendations ....................................................................... 17

APPENDIX I          - SCHEDULE OF DOLLAR-RELATED FINDINGS ...........19

APPENDIX II - UNSUPPORTED QUESTIONED COSTS ......................20

APPENDIX III - OBJECTIVES, SCOPE, AND METHODOLOGY .............21

APPENDIX IV - ADABI RESPONSE TO DRAFT AUDIT REPORT ..........23

APPENDIX V          - OVW RESPONSE TO DRAFT AUDIT REPORT.............27

APPENDIX VI - ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO CLOSE THE REPORT........................31

       OFFICE ON VIOLENCE AGAINST WOMEN GRANTS

                      AWARDED TO

        AMA DOO ALCHINI BIGHAN, INCORPORATED

                    CHINLE, ARIZONA


                            INTRODUCTION



      The Office of the Inspector General, Audit Division, has completed an
audit of the Tribal Domestic Violence and Sexual Assault Coalitions Grant
Program (Tribal Coalitions Program), Grant Number 2005-IW-AX-0007, and
the Rural Domestic Violence and Child Victimization Enforcement Grant
Program (Rural DV Program), Grant Number 2005-WR-AX-0068, in the total
amount of $1,930,450, awarded by the Office On Violence Against Women
(OVW) to Ama Doo Alchini Bighan, Incorporated (ADABI), of Chinle, Arizona.

     The OVW’s web sites on the Tribal Coalitions Program and the Rural
DV Program state that:

      According to the 2007 National Crime Victimization Survey of the
      United States, approximately 623,000 violent crimes–554,000
      against female victims–were committed by an intimate partner
      and approximately 248,300 rape/sexual assault victimizations
      occurred in 2007. The 2007 Bureau of Justice Statistics Report
      on "Homicide Trends in the U.S." revealed that about one third
      of female murder victims were killed by an intimate [partner]. A
      study released by the Centers for Disease Control and Prevention
      found that about 10% of students report being physically hurt by
      a boyfriend or girlfriend in the last 12 months. Lastly, according
      to the Bureau of Justice Statistics Supplemental Victimization
      Survey on Stalking, an estimated 3.4 million persons age 18 or
      older were victims of stalking during a 12 month period. Service
      providers and victims of domestic violence, dating violence,
      sexual assault, and stalking living in rural jurisdictions face
      unique barriers to giving and receiving assistance. These include
      geographic isolation, economic structure, strong social and
      cultural pressures, and lack of available resources.

      The purpose of the Tribal Coalitions Program is to build the capacity of
survivors, advocates, Indian women's organizations, and victim service
providers to form nonprofit, nongovernmental tribal domestic violence and
sexual assault coalitions to end violence against American Indian and Alaska
Native women. OVW's Tribal Coalitions Program grants are used to increase
awareness of domestic violence and sexual assault against American Indian
and Alaska Native women; enhance the response to violence against women
at the tribal, federal, and state levels; and identify and provide technical
assistance to coalition membership and tribal communities to enhance
access to essential services.

      The purpose of the Rural DV Program is to enhance the safety of
children, youth, and adults who are victims of domestic violence, dating
violence, sexual assault, and stalking by supporting projects uniquely
designed to address and prevent these crimes in rural jurisdictions. The
Rural DV Program encourages collaboration between victim advocates, law
enforcement officers, pre-trial service personnel, prosecutors, judges and
other court personnel, probation and parole officers, and faith- and
community-based leaders to overcome the problems of domestic violence,
dating violence, sexual assault, and stalking and ensure that victim safety is
paramount in providing services to victims and their children. The Rural DV
Program is required to set aside no less than 25 to 40 percent of funds,
depending on annual appropriations, for activities that meaningfully address
sexual assault.

Audit Purpose

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported, allowable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
program income, property management, indirect costs, and management of
contractors were not applicable to these grants. 1

      As shown in Exhibit 1, ADABI was awarded two grants, plus one
supplement, totaling $1,930,450.




      1
          Our audit objective, scope, and methodology are further discussed in Appendix III.

                                            -2­
EXHIBIT 1: AWARDS TO AMA DOO ALCHINI BIGHAN, INCORPORATED

      GRANT AWARD             AWARD AMOUNT                    PROGRAM

 2005-IW-AX-0007               $    233,965        Tribal Coalition

 2005-WR-AX-0068                    866,733        Rural DV

 2005-WR-AX­                        829,752        Rural DV

           Total               $ 1,930,450
Source: OJP Grants Management System (GMS)

Background

Office on Violence Against Women

      The Office on Violence Against Women (OVW) currently administers
18 grant programs authorized by the Violence Against Women Act of 1994
and subsequent legislation. These grant programs are designed to develop
the nation’s capacity to reduce domestic violence, dating violence, sexual
assault, and stalking by strengthening services to victims and holding
offenders accountable for their actions.

       The Tribal Coalitions Program grant was awarded to ADABI for the
purpose of establishing a fully functioning Domestic Violence/Sexual Assault
coalition, known as the Southwest Indigenous Women’s Coalition (SWIWC).
The Rural DV Program grant was awarded to ADABI as financial agent, with
the Shiprock Home For Women and Children (HFWC) and the Family
Harmony Program (FHP) as subrecipients, for the purpose of enhancing the
safety of children, youth, and adults who are victims of domestic violence,
dating violence, sexual assault, and stalking by supporting projects uniquely
designed to address and prevent these crimes in rural jurisdictions.
Background on these organizations is discussed below.

Ama Doo Alchini Bighan, Incorporated

      Ama Doo Alchini Bighan, Incorporated (ADABI), is a private, nonprofit,
community-based domestic violence and sexual assault crisis intervention
program. ADABI provides advocacy, prevention, and safe home network
programs. It also serves victims of intimate partner violence in the Chinle
Agency of the Navajo Nation. In collaboration with communities within the
Chinle Agency and surrounding areas, ADABI promotes prevention of
domestic violence and sexual assault, while fostering safety and healing.

      2
       Supplement One (S1) to grant 2005-WR-AX-0068 was awarded to ADABI
September 10, 2007.

                                      -3­
Services provided include: (1) 24-hour crisis intervention, (2) traditional
and spiritual guidance, (3) assistance with the police and courts, (4) safe
house or shelter, (5) emergency food and clothing, (6) support groups,
(7) referral to community services, (8) community education and
workshops, and (9) outreach offices.

Southwest Indigenous Women’s Coalition

       The Southwest Indigenous Women’s Coalition (SWIWC) is a newly
established nonprofit, nongovernmental state-wide Native American
domestic violence and sexual assault coalition located in Phoenix, Arizona.
Its primary purpose is to increase the capacity of native women and tribes to
better address and respond to domestic violence, sexual assault, stalking,
and dating violence in their communities by developing and enhancing their
leadership, advocacy, and programmatic skills. Services include:
(1) regional trainings, (2) technical assistance, (3) prevention, education,
and outreach, (4) state-wide conferences, (5) social change through
leadership development, and (6) resource information and referrals.

Crownpoint Family Harmony Project

       The Crownpoint Family Harmony Project (FHP) is a nonprofit, domestic
violence intervention and prevention program located in Crownpoint, New
Mexico. The mission is to provide its communities and families support and
services by helping them develop the necessary means to break the cycle of
domestic violence. FHP offers: (1) service assessment, (2) support
services, (3) clinical consultation, (4) education and training, (5) life and
social skills development, (6) crisis intervention, (7) parenting classes,
(8) multi-disciplinary health care response team, and (9) a men's program.

Shiprock Home for Women and Children

      The Shiprock Home for Women and Children (HFWC) was founded as a
nonprofit organization in 1978 as a shelter for victims and survivors of
domestic violence and their children. HFWC serves all of the Navajo
reservation, which covers 26,000 square miles, and all of the “Four Corners”
areas of New Mexico, Arizona, Utah, and Colorado. HFWC is committed to
providing shelter, advocacy, mentoring, and education for families affected
by domestic violence and sexual assault through a comprehensive family
wellness center, community awareness and involvement and to identifying
resources to enhance growth and development.




                                     -4­
OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars. We tested ADABI’s:

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if ADABI was managing grant receipts in
      accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grants;

   •	 management of subrecipients to determine how ADABI

      administered pass-through funds;


   •	 Financial Status Reports (FSRs) and Categorical Assistance
      Progress Reports (Progress Reports) to determine if the required
      FSRs and Progress Reports were submitted on time and accurately
      reflect grant activity; and

   •	 grant objectives and accomplishments to determine if ADABI met
      or was capable of meeting the grants’ objectives.

     The results of our analysis are discussed in detail in the Findings and
Recommendations Section of the report. Our audit objective, scope, and
methodology are discussed in Appendix III.




                                     -5­
               FINDINGS AND RECOMMENDATIONS


     Our audit did not disclose any noncompliance with regard to
     budget management and control. Additionally, we determined
     the matching requirement was met. However, ADABI does not
     have approved written financial policies and procedures in place.
     Additionally, we found that the FY 2008 Single Audit was
     delinquent, drawdowns and support documents were inaccurate,
     and notations concerning adjustments to the general ledger were
     unsupported. Also, we identified a total of $22,398 in
     questioned costs due to inadequate support documentation; and,
     for the Tribal Coalition Program grant, expenses were not
     accurately recorded in the proper expense categories.
     Additionally, payroll records for the Executive Director did not
     accurately match the hours worked with hours paid, percentages
     of salaries charged to the grant exceeded the budget, matching
     was not recorded in the accounting system, FSRs typically did
     not reconcile to the accounting records, Progress Reports
     appeared incomplete, and reports were generally late.

Internal Control Environment

      We reviewed ADABI’s Single Audit Reports for Fiscal Years (FY) 2006
and 2007, policies and procedures, and financial management system to
assess ADABI’s risk of noncompliance with laws, regulations, guidelines, and
terms and conditions of the grant. We also interviewed ADABI personnel
regarding payroll, purchasing, and accounts payable and observed the
financial management system to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. We reviewed the Single Audit
Reports for FY 2006 and FY 2007 and identified those findings that have, or
could have, direct impact on DOJ programs. The findings are summarized in
Exhibit 2.




                                    -6­
EXHIBIT 2. ADABI’S FISCAL YEARS 2006 AND 2007 SINGLE AUDIT
            FINDINGS
                                FINDING
           Credit card transactions and other unusual transactions are
  2006-1   being recorded in the financial statements as miscellaneous
           transactions (Repeat in 2007).
           The sum of the expenditures listed on the quarterly form SF
           269 for the year ended December 31, 2006 was $42,000 less
  2006-2
           than the expenditures listed on the financial statement for
           the DOJ Rural grant.
           The sum of the expenditures listed on the quarterly form SF
           269 for the year ended December 31, 2007 was $528,111
  2007-1
           more than the expenditures listed on the financial statement
           for the DOJ Rural grant.
Source: FY 2006 and 2007 Single Audit Reports

      Due to the repeat finding concerning the posting of credit card and
other transactions, we increased the sample size for transactions tested as
described in the Grant Expenditure Section (See Other Direct Costs.
Additionally, as of February 1, 2010, ADABI’s FY 2008 Single Audit was
delinquent. Therefore, we recommend ADABI implement procedures to
ensure timely completion of the single audits.

Financial Management System

      ADABI’s financial management system contains applications for
general accounting, payroll, accounts payable, accounts receivable, and
check writing. The financial management system provides for segregation of
duties, transaction traceability, system security, and limited access. Based
on our review of ADABI’s policies and procedures, interviews with ADABI
personnel, and observation of the system, it appears there are adequate
internal controls to ensure compliance with applicable grant and OJP
requirements. However, ADABI does not have approved documented
financial policies and procedures in place, although it does have a draft
document it consults. Therefore, we recommend that ADABI approve and
implement the draft financial policies and procedures.

Drawdowns

       According to ADABI management, drawdowns are requested monthly
as reimbursements based on accounting record expenditures and
appropriate supporting documents. However, ADABI did not have the
drawdown request forms with supporting documentation available during our
field work. According to ADABI management, this situation occurred

                                        -7­
because the previous Executive Director had taken the records from the files
and placed them in boxes throughout the ADABI facility. Therefore, we
requested and received general ledger excerpts for both grants based on the
periods between drawdowns. These excerpts were the basis for our
assessment of the drawdowns. In May 2010, 4 months after our field work,
ADABI located and provided the actual drawdown requests. Our evaluation
of these drawdown requests did not change our findings or
recommendations.

       For the Rural DV Program grant, the drawdown requests included not
only ADABI expenses, but also reimbursement requests from the HFWC and
FHP. As a result, for the Rural DV Program grant, in 30 instances out of 65
drawdowns ADABI drawdowns exceeded recorded expenses. For the Tribal
Coalitions Program grant, in 13 instances out of 26 drawdowns ADABI
drawdowns exceeded recorded expenses. We found that for both grants,
the drawdown requests and support documentation usually matched the
drawdown. However, there were instances where the drawdowns did not
reconcile with support documents and adjustments to the general ledger
were unsupported. Therefore, we recommend that ADABI improve its
method of completing and maintaining drawdown requests and supporting
documentation.

Grant Expenditures

       The OJP Financial Guide (the Guide) serves as a primary reference
manual to assist award recipients in fulfilling their fiduciary responsibility to
safeguard grant funds and ensure funds are used for the purposes for which
they were awarded. The Guide should serve as a day-to-day management
tool for OJP award recipients and may also be used by subrecipients in
administering their grant programs. The provisions of the Guide apply to all
grantor agency awards by establishing the factors affecting the allowability,
reasonableness, and allocability of both direct and indirect costs charged to
DOJ grants.

Personnel Expenses

      We reviewed ADABI’s personnel files and verified labor charges were
computed correctly, properly authorized, accurately recorded, and properly
allocated to the grant. We also verified whether pay rates and positions
were accurate as compared to those allowed in the approved budget.
Generally, the percentages of salaries allocated to grant funds exceeded the




                                      -8­
budgeted amount. However, due to lower benefit costs ADABI did not
violate the 10 percent rule for budget modification between line items. 3

      Additionally, we found that the timesheet prepared by the Executive
Director and the hours paid did not always match. According to the
Executive Director, she frequently worked extra hours and would offset
these extra hours by working fewer hours in other weeks. We verified this
by checking the time and attendance sheets; and, while it appears that
these average out, it is a violation of the OJP Financial Guide’s requirement
for maintaining accurate records resulting in inadequate accounting for time
worked. We recommend that ADABI modify its payroll system to ensure
time and attendance reconciles to payroll.

Other Direct Costs

       We reviewed the accounting records for Grant Numbers
2005-IW-AX-0007 and 2005-WR-AX-0068. Due to findings in ADABI’s
FY 2006 and FY 2007 Single Audit Reports concerning accounting practices,
we increased our judgmental sample size for transaction testing for each
grant. For Grant Number 2005-IW-AX-0007, we examined 65 transactions
totaling $66,320 or 28 percent of the $233,965 awarded. For Grant Number
2005-WR-AX-0068, we examined 156 transactions totaling $168,281 or 9.9
percent of the $1,696,485 awarded.

       We found that transactions generally were allowable and supported.
However, for Grant Number 2005-IW-AX-0007, we found seven transactions
totaling $15,186 were not properly supported. For Grant Number
2005-WR-AX-0068, we found six transactions totaling $7,212 were not
properly supported. The total combined questioned costs for unsupported
transactions are $22,398 (see Appendix II for details of unsupported costs).
Additionally, for the Tribal Coalition Program grant, ADABI recorded SWIWC
expenses as “subcontractor” rather than separating into actual expense
categories, such as supplies or payroll, resulting in inaccurate accounting of
expenses. Therefore, we recommend ADABI establish procedures to ensure
expenses are properly classified in the accounting records, and transactions
are properly supported.




      3
         The 10 percent rule refers to the 28 CFR § 66.30 requirement that total
movements of amounts of more than 10 percent of the total award between budget
categories requires prior approval of the granting agency.

                                         -9­
Matching

      The Tribal Coalition Program grant, 2005-IW-AX-0007, had a matching
requirement of 25 percent, or $77,988 of the approved budget of $311,958.
Based on our analysis of transactions, we found that the matching
requirement was met. However, although ADABI tracked the matching on
an Excel spreadsheet, ADABI failed to transfer the results to the permanent
accounting records. This is a violation of the OJP Financial Guide’s
requirement to “establish and maintain accounting systems and financial
records to accurately account for funds awarded,” including all matching
funds. We recommend ADABI adopt procedures to ensure matching
requirements are accurately recorded in the permanent accounting system.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. We reviewed the
Financial Status Reports (FSRs) and the Categorical Assistance Progress
Reports (Progress Reports) submitted by ADABI to determine whether each
report was timely and accurate.


Financial Status Reports

       According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. We reviewed the timeliness of the
last four FSRs submitted during the award period for Grant
Numbers 2005-IW-AX-0007 and 2005-WR-AX-0068. Based on our review,
and as shown in Exhibits 3 and 4, we found that the ADABI generally
submitted reports late.

EXHIBIT 3. DAYS LATE SUBMITTING FSRs (2005-IW-AX-0007)
         Report Period         Report Due         Date Submitted
       From - To Dates        Date (M/D/YY)          (M/D/YY)      Days Late
 1      7/1/07 to 9/30/07        11/14/2007            12/6/2007               22
 2      4/1/07 to 6/30/07         8/14/2007            8/30/2007               16
 3      1/1/07 to 3/31/07         5/15/2007            5/22/2007                7
 4   10/1/06 to 12/31/06          2/14/2007            2/15/2007                1
Source: ADABI Financial Status Reports




                                         - 10 ­
      As Shown in Exhibit 3, for Grant Number 2005-IW-AX-0007, the last
four FSRs submitted ranged from 1 to 22 days late.

EXHIBIT 4. DAYS LATE SUBMITTING FSRs (2005-WR-AX-0068)
        Report Period          Report Due         Date Submitted
       From - To Dates        Date (M/D/YY)          (M/D/YY)      Days Late
 1    7/1/09 to 9/30/09        11/14/2009          11/18/2009         4
 2    4/1/09 to 6/30/09         8/14/2009           8/17/2009         3
 3    1/1/09 to 3/31/09         5/15/2009           5/15/2009         0
 4   10/1/08 to 12/31/08        2/14/2009           2/25/2009         11
Source: ADABI Financial Status Reports

      As shown in Exhibit 4, for Grant Number 2005-WR-AX-0068, three of
the last four FSRs submitted ranged from 3 to 11 days late. Exhibits 3 and 4
demonstrate ADABI has been delinquent in submitting FSRs. Based on our
review of the timeliness of FSRs, we recommend ADABI develop and
implement procedures to ensure timely submission of future FSRs.

      We also reviewed 100 percent of the FSRs for both grants to
determine the accuracy of the FSRs. We found that only 3 of the 10 FSRs
for Grant Number 2005-IW-AX-0007 reconciled to the accounting records,
and none of the 17 FSRs for Grant Number 2005-WR-AX-0068 reconciled
with the accounting records. We were unable to determine how FSRs were
prepared or the basis for the numbers reported. Therefore, we recommend
that ADABI implement procedures to ensure future FSRs are accurate and
properly supported.

      Exhibits 5 and 6 show the last four FSRs from each grant to illustrate
the ongoing differences between the FSR reported expenses and those
recorded in the general ledger. For Grant Number 2005-IW-AX-0007, as
shown in Exhibit 5, the FSR quarterly totals do not match the accounting
record quarterly totals except for the quarter ending June 30, 2007.




                                         - 11 ­
EXHIBIT 5. ACCURACY OF FSRs FOR GRANT NUMBER
           2005-IW-AX-0007
                                                                                   QUARTER       CUMULATIVE
                                                                                  DIFFERENCE     DIFFERENCE
                                                EXPENDITURES        ACCOUNTING    ([-] = FSR     ([-] = FSR
                                        FSR         PER               RECORD       EXCEEDS        EXCEEDS
   REPORT PERIOD      EXPENDITURES   CUMULATIVE ACCOUNTING          CUMULATIVE     GENERAL        GENERAL
  FROM - TO DATES       PER FSR        TOTAL      RECORDS.             TOTAL       LEDGER)        LEDGER)


  7/1/07 to 9/30/07       108,338       311,953        25,944          229,638       -82,394        -82,315

  4/1/07 to 6/30/07        55,043       203,615        55,043          203,694               0           79

  1/1/07 to 3/31/07        29,508       148,572        29,167          148,651          -341             79

10/1/06 to 12/31/06        36,095       119,064        36,515          119,484          420             420

Source: ADABI FSRs for Grant Number 2005-IW-AX-0007

      The cumulative totals do not match on any FSR. The majority of the
-$82,315 in the quarter ending September 30, 2007, results from the
recording of the matching amount on the FSR, but the match was not
recorded in the accounting records. This issue was discussed previously in
the Matching section.

      As shown in Exhibit 6, for Grant Number 2005-WR-AX-0068, the only
instance of quarterly or cumulative accounting records matching the
amounts reported on the FSRs came in the period ending December 31,
2009.

EXHIBIT 6.	 ACCURACY OF FSRs FOR GRANT NUMBER
            2005-WR-AX-0068
                                                                                   QUARTER       CUMULATIVE
                                                                                  DIFFERENCE     DIFFERENCE
                                                EXPENDITURES        ACCOUNTING    ([-] = FSR     ([-] = FSR
                                        FSR         PER               RECORD       EXCEEDS        EXCEEDS
   REPORT PERIOD      EXPENDITURES   CUMULATIVE ACCOUNTING          CUMULATIVE     GENERAL        GENERAL
  FROM - TO DATES       PER FSR        TOTAL      RECORDS.             TOTAL       LEDGER)        LEDGER)


10/1/09 to 12/31/09        75,694     1,569,724            75,694     1,507,943              0      -61,781

  7/1/09 to 9/30/09        29,411     1,494,030            89,811     1,432,250       60,400        -61,781

  4/1/09 to 6/30/09       -231,852    1,464,619            92,901     1,342,439     324,753        -122,180

  1/1/09 to 3/31/09        29,500     1,696,471        101,008        1,249,537       71,508       -446,934

Source: ADABI FSRs for Grant Number 2005-WR-AX-0068

      The majority of the differences between the reporting period amounts
and the cumulative total amounts are attributed to how HFWC and FHP
expenses are recorded in the ADABI accounting record. When HFWC and
FHP submit reimbursement requests to ADABI, the requests are added to
ADABI’s expenses and submitted to OJP for reimbursement. ADABI does not

                                                  - 12 ­
record the expenses of the HFWC and FHP reimbursements in its accounting
records until the reimbursement from OJP is received by ADABI and HFWC
and FHP have been reimbursed. This creates a time gap between the receipt
of the drawdown and the recording of expenses in ADABI’s accounting
records. As a result, we recommend that ADABI modify its drawdown
procedures for future awards to ensure the accounting records match the
actual drawdowns.

Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports (Progress Reports) are “prepared twice a year and are used to
describe the performance of activities or the accomplishment of objectives
as set forth in the approved award application.” We reviewed the Progress
Reports for both grants for the last four semiannual reporting periods to
determine timeliness and accuracy.

EXHIBIT 7.	 DAYS LATE SUBMITTING PROGRESS REPORTS
             (2005-IW-AX-0007)
      Report Period
    From - To Dates      Report Due  Date Submitted Days Late
 7/1/2007 to 12/31/2007    1/30/2008    11/30/2007           0
  1/1/2007 to 6/30/2007    7/30/2007       7/9/2007          0
 7/1/2006 to 12/31/2006    1/30/2007      1/29/2007          0
  1/1/2006 to 6/30/2006    7/30/2006      7/24/2006          0
Source: ADABI Progress Reports

      As shown in Exhibit 7, For Grant Number 2005-IW-AX-0007, the last
four Progress Reports, which were submitted in 2006 and 2007, were all
submitted on time. However, as shown in Exhibit 8, for Grant Number
2005-WR-AX-0068, three of the last four Progress Reports, which were
submitted in 2009 and 2010, were 12 to 42 days late. Based on our review,
we found that recent reports were being submitted late; therefore, we
recommend that ADABI implement procedures to ensure future Progress
Reports are submitted in a timely manner.




                                   - 13 ­
EXHIBIT 8. DAYS LATE SUBMITTING PROGRESS REPORTS
            (2005-WR-AX-0068)
      Report Period
    From - To Dates     Report Due  Date Submitted Days Late
 7/1/2009 to 12/31/2009   1/30/2010       3/4/2010        33
  1/1/2009 to 6/30/2009   7/30/2009      8/11/2009        12
 7/1/2008 to 12/31/2008   1/30/2009      3/13/2009        42
  1/1/2008 to 6/30/2008   7/30/2008      7/30/2008          0
Source: ADABI Progress Reports

       We also reviewed available documentation to determine if funds had
been withheld as a result of reports being late. We found that over the 2½­
year period from July 1, 2007, through December 31, 2009, OJP froze funds
10 times, as shown in Exhibit 9. Six instances were due to late FSRs and
four instances were due to late Progress Reports.

EXHIBIT 9. ADABI FUNDS FROZEN BY OJP DUE TO LATE REPORTS
 GAN #       Date                Reason for freeze         Reporting Period
   6        2/14/08    Delinquent Progress Report #5       7/01/07 -12/31/07
   7        2/15/08    Delinquent FSR                       10/1/07-12/31/07
  14        8/15/08    Delinquent FSR                         4/1/08-6/30/08
  17       11/15/08    Delinquent FSR                         7/1/08-9/30/08
  19        2/14/09    Delinquent Progress Report #7       7/01/08 -12/31/08
  20        2/15/09    Delinquent FSR                       10/1/08-12/31/08
  23        8/14/09    Delinquent Progress Report #8          1/1/09-6/30/09
  24        8/15/09    Delinquent FSR                         4/1/09-6/30/09
  29       11/15/09    Delinquent FSR                         7/1/09-9/30/09
  33        2/14/10    Delinquent Progress Report #9       7/01/09 -12/31/09
Source: ADABI Grant Adjustment Notifications

      As stated in the special conditions of the award documents for both
grants, “Under the Government Performance and Results Act (GPRA) and
VAWA 2000, grantees are required to collect and maintain data that
measure the effectiveness of their grant-funded activities. Accordingly, the
grantee agrees to submit semi-annual electronic Progress Reports on
program activities and program effectiveness measures.” To accommodate
this mandatory reporting as identified in the special conditions, OVW
includes these metrics in its pro forma online Progress Reports in the Grant
Management System (GMS). We reviewed the monthly Progress Reports
and found the required data reported as summarized in Exhibits 10 and 11.




                                        - 14 ­
EXHIBIT 10. SPECIAL REPORTING REQUIREMENTS FOR GRANT

            NUMBER 2005-IW-AX-0007

     Criteria/Report Period Ending            12/31/05      6/30/06      12/31/06            6/30/07       12/31/07
No. of Programs belonging to SWIWC               7             7                 7             8               8
No. of Staff of SWIWC                            0.3           0                 1.4           1.3             1.2
Source: ADABI Progress Reports for Grant Number 2005-IW-AX-0007

EXHIBIT 11. SPECIAL REPORTING REQUIREMENTS FOR GRANT
            NUMBER 2005-WR-AX-0068
Criteria/Report Period
Ending                   12/31/05   6/30/06   12/31/06     6/30/07    12/31/07       6/30/08    12/31/08     6/30/09
Victims Receiving
Service                       0         0        1087       1317         110            12             0           56
Persons Seeking
Service not served            0         0             5        0           0             0             0            0
% Arrests to DV
Incidents                     0%        0%            0%      75%          0%            0%            0%           0%
No. of Referrals (CPS
& Victim Advocates)           0         0            52       30           0             0             0            0

Source: ADABI Progress Reports for Grant Number 2005-WR-AX-0068

      Based on the data in Exhibits 10 and 11, it appears that ADABI and
SWIWC complied with the GPRA special reporting requirements for Grant
Number 2005-IW-AX-0007. However, for Grant Number 2005-WR-AX-0068,
data is not being recorded or may not be collected by ADABI as required by
the GPRA special reporting requirements. Of particular concern is that for
three periods, there were no reported victims receiving service, and for six
of the eight periods there were no referrals. Therefore, we recommend that
ADABI implement procedures to ensure compliance with GPRA special
reporting requirements.




                                                  - 15 ­
Conclusion

       We examined ADABI’s accounting records, Financial Status Reports
(FSRs), Categorical Assistance Progress Reports (Progress Reports),
operating policies and procedures, and budget management. Our audit did
not disclose any noncompliance with regard to budget management and
control. We found that ADABI met the match requirement for the Tribal
Coalitions Program grant, 2005-IW-AX-0007. Additionally, we found that
the performance under both grants was acceptable. However, we found
that, while there were adequate operating policies and procedures, ADABI
does not have approved written financial policies and procedures in place.
Also, we found that drawdowns and support documents were inaccurate and
notations concerning adjustments to the general ledger were unsupported,
some expenses were not accurately recorded in the proper expense
categories, and support documentation was inadequate resulting in $22,398
in questioned costs. Additionally, payroll records did not always accurately
match the hours worked, percentages of salaries charged to the grant
exceeded the budget, matching was not recorded in the accounting system,
FSRs typically did not reconcile to the accounting records and were generally
late, and Progress Reports appeared incomplete and were generally late.
Specifically, we found the following:

  •	 ADABI does not have approved written financial policies and

     procedures, although they do consult an unofficial draft.


  •	 ADABI was delinquent in completing its FY 2008 Single Audit.

  •	 Some drawdown requests were ambiguous and inaccurate, resulting in
     the inability to reconcile drawdowns with accounting records.

  •	 For Grant Number 2005-IW-AX-0007, expenses were incorrectly
     combined into a single category as subcontractor expenses rather than
     the appropriate account categories.

  •	 Unsupported questioned costs totaling $15,186 for Grant Number
     2005-IW-AX-0007.

  •	 Unsupported questioned costs totaling $7,212 for Grant Number

     2005-WR-AX-0068.


  •	 Hours paid to the Executive Director for Grant Number 2005-IW-AX­
     0007 did not always match the hours worked, resulting in inaccurate
     payroll records.


                                   - 16 ­
  •	 Percentages of salaries charged to grants exceeded the approved
     grant budget allocation.

  •	 Matching costs for Grant Number 2005-IW-AX-0007 were not recorded
     in the accounting system.

  •	 FSRs for both grants generally did not reconcile to the accounting
     records.

  •	 FSRs for both grants were submitted from 1 to 22 days late.

  •	 Progress Reports for Grant Number 2005-WR-AX-0068 were late from
     12 to 42 days.

  •	 Progress Reports for six of eight reporting periods were missing data
     required by the special conditions for Grant Number
     2005-WR-AX-0068.

These items are discussed in detail in the Findings and Recommendations
Section of the report. Our audit objective, scope, and methodology are
discussed in Appendix III.

Recommendations

        We recommend that the OVW ensures that the ADABI:

  1.	    Implement written financial policies and procedures.

  2.	    Implement procedures to ensure timely completion of single audits.

  3.	    Implement procedures to ensure drawdowns are accurate and

         supported by accounting records.


  4.	    Implement procedures to ensure expenses are properly categorized
         in the accounting records.

  5.	    Remedy $15,186 in unsupported questioned costs for Grant Number
         2005-IW-AX-0007.

  6.	    Remedy $7,212 in unsupported questioned costs for Grant Number
         2005-WR-AX-0068.

  7.	    Implement procedures to ensure payroll records reconcile with time
         and attendance records.

                                    - 17 ­
8.	   Implement procedures to ensure adherence to the grant approved
      budget.

9.	   Implement procedures to ensure matching costs are properly
      recorded in the accounting system.

10.	 Implement procedures to ensure FSRs are accurate and reconcile to
     the accounting records.

11.	 Implement procedures to ensure timely submission of FSRs.

12.	 Implement procedures to ensure timely submission of Progress
     Reports.

13.	 Implement procedures to ensure adherence to award special
     conditions and reporting requirements.




                                - 18 ­
                                                                            APPENDIX I


            SCHEDULE OF DOLLAR-RELATED FINDINGS


           QUESTIONED COSTS 6                                  AMOUNT 7            PAGE
Unsupported Direct Costs (Appendix II)
   2005-IW-AX-0007                                            $      15,186              9
   2005-WR-AX-0068                                                    7,212              9
     Total Unsupported Direct Costs                           $      22,398
Total Questioned Costs                                        $      22,398
TOTAL DOLLAR RELATED FINDINGS                                $      22,398
Source: Office of the Inspector General




       6
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
       7
          Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).

                                          - 19 ­
                                                                            APPENDIX II


                  UNSUPPORTED QUESTIONED COSTS


UNSUPPORTED QUESTIONED COSTS FOR GRANT 2005-IW-AX-0070

                      CHECK                                                   PAID
                                                      8
 NO.   DATE          NUMBER                   MEMO                        AMOUNT
 5    11/7/06        10725      office supplies                         $    216.44
 10  12/11/06        10800      credit card pymt                           1,000.00
 30    7/6/06        10348      ldging                                     2,900.00
 31   8/29/06        10512      r/t mileage, 2006                            243.58
 63    5/9/07        11149      credit card pymt (partial)                   906.09
 64    5/9/07        11150      credit card pymt (partial)                 4,849.63
 65    5/9/07        11151      credit card pymt                           5,070.53
 TOTAL                                                                  $   15,186
Source: Office of the Inspector General



UNSUPPORTED QUESTIONED COSTS FOR GRANT 2005-WR-AX-0068
               CHECK
 NO.   DATE   NUMBER               MEMO           PAID AMOUNT
 3   10/8/08 0       Late fees on Auto tags       $      24.00
 27    5/9/07 11151  credit card pymt                   850.63
 31  9/25/08 0       Investigative Audit              3,368.26
 32  8/11/08 891     Legal Fees 07/24/08-07/29/08     1,130.73
 155   5/9/07 11149  credit cart pymt (partial)         910.94
 156   5/9/07 11150  credit card pymt (partial)         927.64
 TOTAL                                            $ 7,212.20
Source: Office of the Inspector General




      8
          Abbreviations in the memo section appear as presented by ADABI.

                                          - 20 ­
                                                             APPENDIX III



           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
program income, property management, indirect costs, and management of
contractors were not applicable to these grants.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit scope was from the inception of the grants through the most
recent period for which there were complete financial records, which was
December 31, 2009. The Tribal Coalition Program grant, 2005-IW-AX-0007,
began September 3, 2005, and was closed September 10, 2008; the Rural
Domestic Violence Program grant, 2005-WR-AX-0068, began September 27,
2005, and was still open as of December 31, 2009.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing in five areas:
grant expenditures, including payroll and matching; FSRs; and Progress
Reports. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. Due to findings in ADABI’s
Single Audit Reports of Fiscal Years 2006 and 2007 concerning credit card
transactions and other unusual transactions recorded in the financial

                                   - 21 ­
                                                             APPENDIX III



statements as miscellaneous, it was determined the sample size for
transaction testing would be expanded to 156 for Grant Number
2005-WR-AX-0068 and 65 for Grant Number 2005-IW-AX-0007.

      Additionally, we reviewed payroll records for two ADABI employees
covering two pay periods for Grant Number 2005-IW-AX-0007; two
employees covering one pay period, and five employees covering another
pay period for Grant Number 2005-WR-AX-0068; six matching transactions;
all FSRs for both grants; and the last four Progress Reports for each grant.
This nonstatistical sample design does not allow for projection of the test
results to the universes from which the samples were selected.

       In addition, we assessed the grantee’s monitoring of subrecipientsand
evaluated performance to grant objectives. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer-based data was not significant to our objectives.




                                   - 22 ­
                                                                                  APPENDIX IV



             ADABI RESPONSE TO DRAFT AUDIT REPORT



July 23, 2010

U.S. Department of Justice
Office of the Inspector General
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, Colorado 80203

Dear Mr. Sheeren:

This is to provide a written response to your monitoring/draft report of ADABI’s site visit conducted
on January 11-15, 2010.

The following is a brief narrative responding to the items listed under “Recommendations” in your
monitoring/draft report.

Recommendations for Improvement

        1.) It is recommended ADABI implement written financial policies and procedures.

Response:	      ADABI’s Executive Director has a draft Financial Operations Policy Manual, it has
                been presented to the Board of Directors and Lawyer for their review and should be
                finalized by the end of December 2010.

        2.) It is recommended the ADABI implement procedures to ensure timely completion of
             single audits.
        3.)	 Response: ADABI will implement in the Financial Policies and Procedures to ensure
             timely completion of single audits. The Financial Policies and Procedures are currently
             being reviewed by ADABI’s Board of Directors and Lawyer and should be finalized by the
             end of December 2010. According to the current Draft FPP it does not include
             Completion of Single audits in a timely matter, the ED will work/include in the Draft FPP
             and present to the Board of Directors.
        4.)	 It is recommended that ADABI implement procedures to ensure draw downs as
             accurate and supported by accounting records.

Response:	      ADABI administrative assistant and book keeper will keep an accurate spread sheet
                to clarify each drawn downs as accurate and supported by accounting records.
                According to the Draft FPP it does not include draw downs, the ED will work/include
                in the Draft FPP and present it to the Board of Directors.




                                               - 23 ­
                                                                                 APPENDIX IV




       5.)	 It is recommended ADABI implement procedures to ensure expenses are properly
            categorized in the accounting records.

Response:	 ADABI will implement procedures to ensure expenses are properly categorized in the
           accounting records no later than December 2010. Currently ADABI book keeper utilizes an
           accounting software that categorizes each expense and account/expense is identified
           properly.

       6.)	 It is recommended ADABI remedy $15,186.00 in unsupported questioned costs for
            Grant Number 2005-IW-AX-0007.

Response:	     This was due to Credit Card expenses with no receipts, currently ADABI no longer has a
               credit card account. For all expenses that will be paid for by grant funds, ADABI will
               require an original receipt along with the invoice. ADABI staff searched high and low for
               receipts but files were displaced and misplaced by former staff and paper work placed in
               boxes in a room without any form or organization and we did the best at finding what
               we could. ADABI has learned a huge lesson and will try not to make this mistake again.

     6. ) It is recommended ADABI remedy $7,212.00 in unsupported questioned costs for Grant
                 Number 2005-WR-AX-0068.

Response:	     This was due to Credit Card expenses with no receipts, currently ADABI no longer has a
               credit card account. For all expenses that will be paid for by grant funds, ADABI will
               require an original receipt along with the invoice. ADABI staff searched high and low for
               receipts but files were displaced and misplaced by former staff ad paper work placed in
               box, in a room without any form or organization and we did the best at finding what we
               could. ADABI has learned a huge lesson and will try not to make this mistake again.

       7.) It is recommended ADABI implement procedures to ensure payroll reconciles with time
           and attendance. According to the FPP it lists the step by step policy of when and how
           issuing payroll and time and attendance records and posts information for payroll in the
           general ledger.

Response:	     ADABI has purchased a digital time clock for staff to clock in and out during their work
               hours, this has been implemented in the Financial Policies and Procedures. According to
               the Draft Financial Policies and Procedures it has a step by step policy from AA to BK
               then to ED for final review and signature.




                                              - 24 ­
                                                                                APPENDIX IV




       8.)	 It is recommended ADABI implement procedures to ensure adherence to the grant
            approved budget.

Response:	    Ensuring adherence to the grant approval budget has been implemented in the Financial
              Policies and Procedures and is currently being reviewed by ADABI’s Board of Directors
              and Lawyer. ADABI currently uses a spreadsheet for all expenditures and the Book
              Keeper keeps spreadsheets current and updated every week. The Administrative
              Assistant matches to ensure the balance is correct.

       9.)	 It is recommended ADABI implement procedures to ensure matching costs are properly
            recorded in the accounting system.

Response:	    ADABI will implement procedures to ensure matching costs are properly recorded in the
              accounting system, this is included in the Financial Policy and Procedures. The FPP
              states: To complete the process for in-kind donations, contributions, interest and all
              other income, the Administrative Assistant and Executive Director, follow the
              appropriate steps as stipulated under, Deposit of Funds however it does not specifically
              say “matching” so the ED will work on this and present/include in the policy.

       10.) It is recommended ADABI implement procedures to ensure FSR’s are accurate and
            reconciled to the accounting records.

Response:	    ADABI will implement procedures in the Financial Policies and Procedures to ensure
              FSR’s are accurate and reconciled to the accounting records. Currently ADABI’s
              Administrative Assistant and Book Keeper will work together to ensure the Financial
              Status Report’s are accurate and reconciled to the accounting records.

       11.) It is recommended ADABI implement procedures to ensure timely submission of FSR’s.

Response:	    ADABI will implement procedures in the Financial Policies and Procedures to ensure
              FSR’s are accurate and reconciled to the accounting records. Currently ADABI’s
              Administrative Assistant and Book Keeper will work together to ensure the FSR’s are
              accurate and reconciled to the accounting records and submitted on time and in the
              Draft FPP it does not have a time line, ED will work/include a time of due date in the
              policy.

       12.) It is recommended ADABI implement procedures to ensure timely submission of
           Progress Reports.

Response:	    ADABI will implement procedures to ensure timely submission of Progress Reports no
              later than December 2010. Currently the Draft FPP does not have a time line, ED will
              work/include a time of due date in the policy.

       13.)It is recommended ADABI implement procedures to ensure adherence to award special
           conditions and reporting requirements.



                                             - 25 ­
                                                                               APPENDIX IV

Response: ADABI will implement in the Financial Policies and Procedures to ensure adherence to award
          special conditions and reporting requirements no later than December 2010.

Responses to the DOJ draft audit recommendations, the procedures will be developed (and/or in
existence) and are in writing.

Should you have any questions, please call Ralphine Archie or me at 928-674-8314. Thank you.




Respectfully,

/s/ Lorena T. Halwood
Lorena T. Halwood

Executive Director

Cc:     Ralphine Archie, ADABI Administrative Assistant




                                              - 26 ­
                                                                            APPENDIX V



             OVW RESPONSE TO DRAFT AUDIT REPORT





                                                                             August 26, 2010


MEMORANDUM


TO:	                 David Sheeren
                     Regional Audit Manager
                     Denver Regional Audit Office

FROM:	               Susan B. Carbon
                     Director
                     Office on Violence Against Women

                     Rodney Samuels
                     Audit Liaison
                     Office on Violence Against Women

SUBJECT:	            Response to the Draft Audit Report - Audit of the Ama Doo Alchini
                     Bighan, Incorporated (ADABI). Chinle, Arizona


This memorandum is in response to your correspondence dated May 12, 2010 transmitting the
above draft audit report for Ama Doo Alchini Bighan, Incorporated (ADABI). We consider the
subject report resolved and request written acceptance of this action from your office.

The report contains thirteen recommendations and $22,398 in unsupported questioned costs.
The Office on Violence Against Women (OVW) agrees with the recommendations and is
committed to working with the grantee to address each item and bring them to a close as
quickly as possible. The following is an analysis of the audit recommendations:


   1. Implement written financial policies and procedures.

       OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
       copy of the newly implemented written financial policies and procedures.



                                           - 27 ­
                                                                         APPENDIX V

2.	 Implement procedures to ensure timely completion of single audits.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure timely completion of their
   single audits.

3.	 Implement procedures to ensure drawdowns are accurate and supported by
    Accounting records.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure drawdowns are accurate
   and supported by accounting records.

4.	 Implement procedures to ensure expenses are properly categorized in the
     accounting records.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure expenses are properly
   categorized in the accounting records.

5.	 Remedy $15,186 in unsupported questioned costs for Grant Number
    2005-IW-AX-0007.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain
   documentation for the $15,186 in unsupported questioned costs for
   Grant No. 2005-IW-AX-0007.

6.	 Remedy $7,212 in unsupported questioned costs for Grant Number
    2005-WR-AX-0068.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain
   documentation for the $7,212 in unsupported questioned costs for
   Grant No. 2005-WR-AX-0068.

7.	 Implement procedures to ensure payroll reconciles with time and attendance.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure payroll reconciles with
   time and attendance.

8.	 Implement procedures to ensure adherence to the grant approved budget.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure adherence to the grant
   approved budget.



                                       - 28 ­
                                                                        APPENDIX V


9.	 Implement procedures to ensure matching costs are properly recorded in the
    Accounting system.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure matching costs are
   properly recorded in the accounting system.

10. Implement procedures to ensure FSRs are accurate and reconcile to the
    Accounting records.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure FSRs are accurate
   and reconcile to the accounting records.

11.	 Implement procedures to ensure timely submission of FSRs.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure timely submission of
   FSRs.

12. Implement Procedures to ensure timely submission of progress reports.

   OVW agrees with this recommendation. We will coordinate with ADABI to obtain a
   copy of the newly implemented procedures written to ensure timely submission of
   progress reports.

13. Implement procedures to ensure adherence to award special conditions and
    reporting requirements.

   OVW agree with this recommendation. We will coordinate with ADABI to obtain
   a copy of the newly implemented procedures written to ensure adherence to award
   special conditions and reporting requirements.




                                       - 29 ­
                                                                              APPENDIX V




We appreciate the opportunity to review and comment on the draft report. We will continue to
work with ADABI to address the recommendations. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at
(202) 514-9820.

cc:	   Richard Theis
       Assistance Director
       Audit Liaison Group
       Justice Management Division

       Kotora Padgett
       Accounting Officer
       Office on Violence Against Women

       Kathy Howkumi
       Program Specialist
       Office on Violence Against Women




                                            - 30 ­
                                                                APPENDIX VI


             ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO CLOSE THE REPORT



1.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has remedied its internal control
      deficiencies related to implementation of written financial policies and
      procedures.

2.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has remedied its internal control
      deficiencies related to ensuring timely completion of single audits.

3.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has implemented procedures to ensure
      drawdowns are accurate and supported by accounting records.

4.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has implemented procedures to ensure
      expenses are properly categorized in the accounting records.

5.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has remedied the $15,186 in unsupported
      questioned costs for Grant Number 2005-IW-AX-0007.

6.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has remedied the $7,212 in unsupported
      questioned costs for Grant Number 2005-WR-AX-0068.

7.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has implemented procedures to ensure
      payroll records reconcile with time and attendance records.

8.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has implemented procedures to ensure
      adherence to the grant approved budget.

9.	   Resolved. This recommendation can be closed when we receive
      documentation that ADABI has implemented procedures to ensure
      matching costs are properly recorded in the accounting system.

10.	 Resolved. This recommendation can be closed when we receive
     documentation that ADABI has implemented procedures to ensure
     FSRs are accurate and reconcile to the accounting records.

                                    - 31 ­
                                                           APPENDIX VI



11.	 Resolved. This recommendation can be closed when we receive
     documentation that ADABI has implemented procedures to ensure
     timely submission of FSRs.

12.	 Resolved. This recommendation can be closed when we receive
     documentation that ADABI has implemented procedures to ensure
     timely submission of Progress Reports.

13.	 Resolved. This recommendation can be closed when we receive
     documentation that ADABI has implemented procedures to ensure
     adherence to award special conditions and reporting requirements.




                                  - 32 ­
